No. 19IN THE

~upreme QC:ourt of tbe Wlniteb ~tates
FRESNO COUNTY SUPERINTENDENT OF SCHOOLS,

Petitioner,

v.
AILEEN RIZO,

Respondent.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I hereby certify that three copies of
the Petition for a Writ of Certiorari in Fresno County Superintendent of Schools v.

Rizo, No. 19-__ , were served via overnight mail on all parties required:
Daniel M. Siegel
SIEGEL, YEE

& BRUNNER

475 14th Street
Suite 500
Oakland, CA 94612
(510) 839-1200
danmsiegel@gmail.com

Counsel for Respondent
I declare under penalty of perjury that the foregoing is true and correct.

Date: March 24, 2020

